OIG Investigative Reports Press Release Syracuse N.Y., 05/17/2013 - Syracuse Woman Sentenced in Aggravated Identity Theft Case
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Department of Justice
United States Attorney Richard S. Hartunian
Northern District of New York
FOR IMMEDIATE RELEASE
May 17, 2013
http://www.usdoj.gov/usao/nyn
CONTACT: Edward Broton
PHONE: (315) 448-0672
Syracuse Woman Sentenced in Aggravated Identity Theft Case
United States Attorney Richard S. Hartunian announced today that a Syracuse woman has been sentenced for her role in a series of aggravated identity thefts, three of which were committed  after she had been indicted and while she was under federal court supervision.
Today Maurisha Dixon, age 25, was sentenced by United States District Court Judge David N. Hurd in Utica. DIXON was sentenced to 60 months imprisonment and ordered to pay restitution in an amount exceeding $55,000 with $36,694 going to Sallie Mae, $5,000 to The College Loan Corporation, and the remainder to KeyBank. DIXON will also serve four years of supervision following her release from incarceration and was ordered to pay a special assessment of$1, 100. She was remanded to prison immediately following sentencing.
DIXON pleaded guilty on August 24, 2012 to four counts of aggravated identity theft, one count of wire fraud, three counts of false representation of a social security number, and three counts of committing an offense while on supervised release (11 felony counts in total). DIXON admitted that she stole and misused without authorization the identities and ersonal information of four individuals- some known to her, and some unknown- and used that information to defraud financial institutions in a series of schemes involving student loans and credit cards. In executing those schemes, DIXON created and used false documents, counterfeited government agency letterhead,  and falsely represented herself as the individuals whose identities she had stolen.
The case was investigated by the Social Security Administration- Office oflnspectorGeneral and the Office of the Inspector General for the U.S. Department of Education. The case was prosecuted by Assistant United States Attorney Stephen C. Green.
Top
Printable view
Last Modified: 05/22/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov